                                                          U.S. Department of Justice

                                                          Thomas A. Marino

                                                          United States Attorney
                                                          Middle District of Pennsylvania


Ri'lliarn J. Nealon Federal Building   Harrisburg Federal Building and         Herrmatt T. Scltneebeli Fcderrrl B~rildi~tg
Suite 3 11                             Courtl~ouse,Suite 220                   Suite 3 I6
235 N. Washington Aveilue              228 U a l t ~ nStreet
                                                      t                        240 West Third Strrrt
P.O. Box 309                           P.0.Box 11 754                          WiIliamsporr, Pyi 1 770 1-6465
Scra~~ro~z, PA 18501-0309              Harrisburg, PA I 7108-1 754             (570) 326-1935
(570) 348-2800                         (71 7) 221-4482                         FAX (570) 326- 7916
FAX (570) 348-2816/348-2830            FAX (71 7) 221-d582/221-2246



                                                                     Piease respond lo.    SC~anton


                                                          March 10, 2006

                                               NEWS WLEASE

        Thomas A. Malino, United States Attorney for the Middle District of Pennsylvania, announced

today that Scott Marvin Russell, 39, of McKinney , Texas, has been sentenced on federal charges of

operating an air common carrier while under the influence of alcohol, arising out of a11 incident at the

Wilkes-Barre/Scranton International Airport on May 12, 2004. At the federal courthouse in Scranton.

United States District Judge Edwin M. Kosik sentenced Russell to six months of imprisomllent foilowed

by two years of supervised release, a $2,000 fine, and a $100 special assessment.

        The Court ordered Russell to surrender before 2:00 p.m. on April 28, 2006, for service of the

sentence at the institution designated by the federal Bureau of Prisons. The Court recommended that the

Bureau of Prisons designate a community corrections center near Russell's residence as the place for

service of the sentence. The fine is payable during the period of incarceration through the Bureau of

Prisons b a t e Financial Responsibility Progam. While on supervised release, Russell must refrain

from the consumption of alcoholic beverages, and pay any balance remaining on the fine in minimum
lnonthly installments of $ 1 00.

       On October 26, 2005, Russell pleaded guilty to the one-count Indictment alleging a i7101at~on
                                                                                                   of

Tltle 18, United States Code, Section 342. The offense to whlch Russell pleaded guilty is a felony,

carrying a maximum period of imprisoml~entof fifteen years and a maximum potential fine o f

$250,000.00. Federal sentencing guidelines, which are advisory, recommended a sentence of 6- 12

months of inlprisonment, while allowing for a probationary sentence.

       Russell was formerly employed as a pilot by Sky King Airllnes of Sacramento, Cal~fornia.The

charges in the Indictment arose from RusselI's operation, on May 12,2004, of a Boeing 737-291 aircraft

scheduled to depart the Wilkes-Barre/Scranton International Airport, en route to Myrtle Beach, South

Carolina, canylng 57 passengers. Russell, the flight's First Officer (co-pilot), operated the aircraft by

performing pre-flight preparations and, along with the captain, taxiing the aircl aft to the main ter-mind

prior to take-off. While performing these duties, Russell was under the influence of alcohol. Breath

aicohol tests performed approximately three hours afier the scheduled departure time showed Russell's

blood alcohol content at .083 RAC. After the passengers had boarded but before take-off, Russell

removed himself from the f l i ~ hand
                                  t was replaced.

       The investigation was conducted by the Philadelphia Field Office of the United States

Department of Transportation, Office of Inspector General, in conjunction with the Pittston Tounship

Police Department.

       The case was prosecuted by Assistant United States Attorney Christopher H. Casey.
